Lori E. Lightfoot DEPARTMENT OF LAW* APPEALS DIVISION Celia Meza
Mayor CITY OF CHICAGO Acting Corporation Counsel

 

March 31, 2021

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
One First Street, N.E.

Washington, D.C. 20543

RE: Fred J. Eychaner v. City of Chicago, No. 20-1214

Dear Mr. Harris:

The petition for a writ of certiorari in this case was docketed on March 3, 2021.
The City of Chicago waived its right to respond, but the Court requested a response by
April 14, 2021. We respectfully request a 44-day extension of time, to and including May
28, 2021, within which to file the requested response. The additional time is necessary
for several reasons. My office has been working remotely for more than a year, which
has affected our efficiency. During that time, we have incurred upwards of a 35%
reduction in attorney time because of vacancies that we have had to leave unfilled for
budgetary reasons and because the public schools are not fully reopened for in-person
learning. The brief in opposition will also require significant time from my division
because the second question was not briefed below and because we expect the filing of at
least four separate amicus briefs in support of the petition, to which I have provided
consent.

Thank you for your assistance with this request.
Sincerely,
Benne BS lore—
Benna Ruth Solomon

Deputy Corporation Counsel

ce: Kosta Stojilkovic

2 NORTH LASALLE STREET, SUITE 580, CHICAGO, ILLINOIS 60602
